<html>
<title> - THE THREAT OF ISLAMIC EXTREMISM IN RUSSIA</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






               THE THREAT OF ISLAMIC EXTREMISM IN RUSSIA

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON EUROPE, EURASIA, AND EMERGING THREATS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 30, 2015

                               __________

                           Serial No. 114-98

                               __________

        Printed for the use of the Committee on Foreign Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______
                                 

                         U.S. GOVERNMENT PUBLISHING OFFICE 

96-819 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                                 
                                 
                                 
                                 
  
  
  
  
  
  
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director
             Jason Steinbaum, Democratic Staff Director
                                 ------                                

         Subcommittee on Europe, Eurasia, and Emerging Threats

                 DANA ROHRABACHER, California, Chairman
TED POE, Texas                       GREGORY W. MEEKS, New York
TOM MARINO, Pennsylvania             ALBIO SIRES, New Jersey
MO BROOKS, Alabama                   THEODORE E. DEUTCH, Florida
PAUL COOK, California                WILLIAM KEATING, Massachusetts
RANDY K. WEBER SR., Texas            LOIS FRANKEL, Florida
REID J. RIBBLE, Wisconsin            TULSI GABBARD, Hawaii
DAVID A. TROTT, Michigan

















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Leon Aron, Ph.D., resident scholar and director of Russian 
  studies, The American Enterprise Institute.....................     3
Mr. Simon Saradzhyan, assistant director, U.S.-Russia Initiative 
  to Prevent Nuclear Terrorism, Belfer Center for Science and 
  International Affairs, Harvard University......................    12
Mark N. Katz, Ph.D., professor of government and politics, School 
  of Policy, Government, and International Affairs, George Mason 
  University.....................................................    21

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Leon Aron, Ph.D.: Prepared statement.............................     6
Mr. Simon Saradzhyan: Prepared statement.........................    15
Mark N. Katz, Ph.D.: Prepared statement..........................    23

                                APPENDIX

Hearing notice...................................................    40
Hearing minutes..................................................    41

 
               THE THREAT OF ISLAMIC EXTREMISM IN RUSSIA

                              ----------                              


                     WEDNESDAY, SEPTEMBER 30, 2015

                       House of Representatives,

         Subcommittee on Europe, Eurasia, and Emerging Threats,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2 o'clock 
p.m., in room 2200, Rayburn House Office Building, Hon. Dana 
Rohrabacher (chairman of the subcommittee) presiding.
    Mr. Rohrabacher. We call to order this hearing of the 
Europe, Eurasia, and Emerging Threats Subcommittee.
    This afternoon we will hear testimony, expert testimony, on 
the topic not thought to be, but in reality of great concern 
and importance, the threat of Islamic extremism inside Russia 
and what that might mean to the United States and global 
security.
    The fight against violent, radical Islam is one of the 
major challenges of our time. Islamic terrorists have targeted 
numerous countries for attack, including the United States and 
Russia. They have declared war on the modern civilized world. 
Their barbaric actions in Syria remind us daily of their 
depravity. They must be stopped and they must be defeated. The 
future of America, Russia, and, yes, of Western civilization, 
depends on that. The lives of millions will be in jeopardy if 
we don't do what is right today.
    Given the global nature of this fight, it is in the 
interests of our national interests to understand the growth of 
extremism in other parts of the world and in other countries, 
such as Russia. It is alarming to read reports of Muslims 
living in peaceful and in free democratic countries being 
attracted or recruited into radical Islamic terrorism. This 
frightening reality is happening in Europe and elsewhere. Media 
reports indicate that over 2,000 Russian-born fighters may have 
traveled to the Middle East to join ISIL. Our collective 
inability to stem this tide is both shocking and unnerving.
    This afternoon, I look forward to hearing from all of our 
witnesses. I know Dr. Aron we are pleased to welcome back as a 
witness, has some unique insights regarding the spread of 
extremism into Muslim populations inside Russia. We don't 
normally associate this behavior with such Russian ethnic 
groups, like the Tatars or others, but we need to know what 
those details are. We will learn more about this and other 
things in your testimony.
    And also, in the aftermath of the Boston bombing in May 
2013, I led a congressional delegation to Russia where we met 
with Russian Government and intelligence officials and 
discussed the threat of terrorism and how our governments could 
potentially cooperate. I have been disappointed that, due to 
the upheaval in Ukraine, more has not been achieved in 
implementing cooperation in this area.
    Of course, extremist forces continue to plot attacks 
against both the United States and Russia. It seems plain to me 
that if we work together we will be better able to protect our 
people, stop attacks, and kill violent terrorists--something I 
am personally in favor of as a matter of policy.
    Please let me note our discussion today about Russia and 
the question of finding possible areas of cooperation in no way 
downplays or overlooks the disappointing situation in Ukraine. 
As a result, our government has imposed sanctions on Russian 
officials and institutions. Even with that millstone around our 
necks, our two governments still manage to achieve an admirable 
level of cooperation in other areas, like the International 
Space Station, for example. Perhaps our governments might also 
make a joint effort to stop the spread of Islamic extremism and 
the terrorism that flows from it.
    Without objection, all members will have 5 legislative days 
to submit written questions or extraneous materials for the 
record.
    And I will introduce the witnesses after opening statements 
from Mr. Sires and our colleagues.
    Mr. Sires. Thank you, Mr. Chairman, for holding today's 
timely hearing on Russia and the Islamic extremists.
    Since coming into power 15 years ago, Vladimir Putin has 
been committed to restoring Russia as a great power, shaping 
his policy to position Russia as a counterweight to the United 
States. We saw Putin flex his muscles in the annexation of 
Crimea last year and the subsequent fighting in Ukraine. Now 
Russia has shifted its attention to increased support for the 
Assad regime and an increased role in the Syrian conflict.
    At the U.N. this week, Putin continued his talk of the 
importance of mounting a broad effort to support Assad as the 
only way to fight against the spread of the Islamic State. 
Russia's plan to combat Islamic extremists through the support 
of Assad and to strengthen its military presence in Syria 
directly contradicts with the U.S. diplomatic goals to have 
Assad transition out of power.
    It is unclear whether Putin's motives in Syria and the 
Middle East are self-serving or stem from the growing concern 
over a large number of jihadist fighters from the North 
Caucasus fighting in Syria who could pose a serious problem for 
Moscow should they return to Russia.
    Given that the U.S. and Russia are at a critical crossroads 
in conversations on how to best combat Islamic extremists, I 
look forward to hearing from our esteemed panel of witnesses on 
the possible outcomes and solutions to the current challenges.
    Thank you, Mr. Chairman.
    Mr. Rohrabacher. Thank you.
    Mr. Brooks has no opening statement, but how about Mr. 
Weber?
    Do you have a short opening statement?
    Mr. Weber. Yeah. Welcome. Let's go.
    Mr. Rohrabacher. He is great. All right.
    With that said, I will ask the witnesses to summarize your 
prepared statements. Hopefully, they are 5-minute summaries, 
and then we can have a dialogue and have some questions and 
answers. First, I am going to introduce all of the witnesses, 
and then we will proceed.
    Dr. Leon Aron is a resident scholar and director of Russian 
Studies at the American Enterprise Institute. Starting this 
year, he joined the Broadcasting Board of Governors, the 
organization which oversees operations of international 
broadcasting, such as Voice of America. He is a widely 
published author and has earned his Ph.D. at Columbia 
University.
    Simon Saradzhyan is a research fellow at the Kennedy 
School, Belfer Center for Science and International Affairs at 
Harvard University. He is also the assistant director of the 
U.S.-Russia Initiative to Prevent Nuclear Terrorism. Prior, he 
worked as a journalist in Russia for 15 years, where he covered 
several major events, including the terrorist attack at Beslan.
    Next, we have Dr. Mark Katz, who is a professor of 
government and politics at George Mason University. He has 
authored many books and articles, for example, ``Leaving 
Without Losing: The War on Terror After Iraq and Afghanistan.'' 
Very fascinating. Thank you. He earned his Ph.D. from the 
Massachusetts Institute of Technology.
    So we have a very esteemed group of witnesses today, and we 
appreciate you being with us. And, again, if you could 
summarize in 5 minutes, we will have a good dialogue on this.
    Dr. Aron, you may proceed.

STATEMENT OF LEON ARON, PH.D., RESIDENT SCHOLAR AND DIRECTOR OF 
       RUSSIAN STUDIES, THE AMERICAN ENTERPRISE INSTITUTE

    Mr. Aron. Thank you very much, Mr. Chairman, Ranking 
Member, members of the committee.
    On the morning of July 19, 2012, gunshots and car bombs 
explosion woke up Kazan, the capital of Tatarstan, Russia's 
largest autonomous republic and the home of its largest Muslim 
ethnicity, the Tatars. The shots hit Valiulla Yakupov, Deputy 
Mufti of Tatarstan, in charge of education in Islamic studies. 
The bomb went off under the car of the Chief Mufti of 
Tatarstan, Ildus Fayzov. Fayzov was badly injured. Yakupov was 
killed.
    Appointed only a year before, both men were moderate 
clerics, determined to oppose what they saw as the encroachment 
of fundamentalism, Salafism in Tatarstan, and to strengthen the 
traditional moderate Hanafi madhab, which is one of the five 
major branches of Sunni Islam. Lest anyone miss the terrorists' 
point, a cavalcade of cars, under the black-and-white banners 
of global jihadists, raced through downtown Kazan shortly after 
the attack.
    I think the July 19 attack, in retrospect, could be viewed 
as a watershed. Two decades after the first Chechen war, the 
Russian jihad may be reaching a tipping point at which the 
center of gravity of militant Islamic fundamentalism is 
shifting from North Caucasus to the more urban and densely 
populated European Russian heartland, the home of 13 million 
Muslims, especially Tatars and Bashkirs, Russia's second-
largest Muslim group, that are very close to Tatars both 
ethnically and geographically. If this trend continues, the 
consequences for the largest Muslim country in Europe, and 
Russia has an estimated Muslim population of 20 million, could 
be ominous.
    Let me mention five underlying factors, all of which 
continue to operate today as risk factors that increase the 
likelihood of terrorist attacks in Russia and heighten Russia's 
vulnerability to such attack.
    Number one, Russia has not been able to evade the pan-
European phenomenon. That is the turn to radical Islam of a 
fraction of seemingly assimilated and integrated European 
Muslim population, especially its young people.
    Two, the exposure after the fall of the Soviet Union of an 
estimated tens of thousands of Russian Muslims to Salafism and 
Wahhabism in the course of theological studies in the Middle 
East. In their return to Tatarstan and Bashkortostan, some of 
the newly minted imams have increasingly turned away from the 
traditional, moderate Hanafi madhab and toward Salafism and 
Wahhabism. According to Russian experts, imams that share 
Wahhabi views preach at dozens of the over 1,000 mosques in 
Tatarstan.
    Three, Russia is now home to millions of guest workers, 
Muslims from Central Asia: An estimated 2 million Uzbeks, 
between 1 and 2 million Tajiks, and around 1 million Kyrgyz. 
There are an estimated 2\1/2\ million of only registered 
migrants from Central Asian Moscow alone, making the Russian 
capital the largest Muslim city in Europe.
    Often without work permits, marginalized culturally and 
ethically, and often subjected to abuse, extortion, and not 
infrequently to racist violence, many of the men, 
understandably, turn to their faith and the faith of their 
grandparents as a means to sustain their dignity. 
Unfortunately, as reported in the Russian media, at least some 
fall under the influence of radical clerics and, more 
importantly and recently, recruiters from ISIS.
    According to the reports in the Russian media, most, if not 
all ISIS fighters from Central Asia have been recruited at the 
construction sites in Russia, especially Moscow, including an 
estimated 400 ethnic Uzbeks fighting with ISIS in Syria. All of 
them were recruited outside of Uzbekistan, including their 
reported leader, Nusrat Nazarov.
    Number four, given the permeability of borders, the 
recruitment, and the proselytizing effort that has been doubled 
and tripled by ISIS in Central Asia, especially Uzbekistan, 
Kyrgyzstan, and Tajikistan, given the flow of people, such 
efforts are likely to result in the increasing radicalization 
of the elements of the Central Asian diaspora in Russia. If you 
add to this the fact that, with Russia on the ground now in 
Syria, adding to other risks of Putin's decision is also the 
fact that the probability of retaliatory terrorist strikes 
inside Russia are increasing.
    The final point, the Secretary of the Russian Security 
Council, Nikolai Patrushev, said that, at the moment, Russian 
authorities do not have the means to stem the flow of 
volunteers to ISIS. The Russian Foreign Ministry estimates that 
there are around 2,400 Russian speakers among the jihadists in 
Syria, while the total Russian nationals and those from the 
former Soviet Union in the ranks of ISIS could be as high as 
5,000. Today, Russian is the third-most popular ISIS language 
after Arabic and English.
    How long will it be before the veterans of ISIS, coming 
back to Russia, decide to join a fight for a Russian caliphate 
inside Russia?
    Mr. Chairman, let me conclude on this. Like overwhelming 
majorities of Muslims everywhere, most Russian Muslims and the 
migrants from Central Asia practice their religion peacefully, 
abhor violence, and are good citizens and patriots of their 
countries. Yet, as we have learned only too well in the 14 
years since 9/11, the radicalization of even a small minority, 
not registered by any public opinion polls, can inflict 
incalculable damage and cost thousands of lives.
    If the evidence that I outlined today does not amount to a 
significant increase in national and international terrorism, I 
will be the first to acknowledge and celebrate my error. But 
having largely missed the rise of Chechen terrorism, al-Qaeda, 
and ISIS, we would be far better off wrong than sorry.
    Thank you very much.
    [The prepared statement of Mr. Aron follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                              ----------                              


  STATEMENT OF MR. SIMON SARADZHYAN, ASSISTANT DIRECTOR, U.S.-
 RUSSIA INITIATIVE TO PREVENT NUCLEAR TERRORISM, BELFER CENTER 
   FOR SCIENCE AND INTERNATIONAL AFFAIRS, HARVARD UNIVERSITY

    Mr. Saradzhyan. Mr. Chairman and distinguished members of 
the committee, thank you for inviting me to participate in what 
I believe is a very important event.
    I will present my view on prospects for U.S.-Russian 
cooperation in countering terrorism, and I will start with an 
observation made by Winston Churchill, who is often quoted 
saying that Russia is a riddle wrapped in a mystery inside an 
enigma. Fewer, though, remember the remainder of that saying, 
which is that perhaps there is a key, and that key is Russia's 
national interest when it comes to discerning Russian actions.
    There is no strategic document, Russian strategic document 
or statement that would offer a hierarchy of vital national 
interests, but I have taken liberty to distill some of the 
statements to build such a hierarchy in the statement that you 
have. Of these interests, at least three of seven vital 
national interests to Russia, at least three are affected by 
the political violence in the Middle East. And of these three 
interests, which are prevent insurgencies in Russia, in areas 
adjacent to Russia; prevent large-scale terrorist attacks on 
Russia and its allies; and prevent the proliferation of weapons 
of mass destruction, particularly nuclear weapons, to countries 
and also nonstate actors, at least two of those interests 
converge with U.S. vital national interests as formulated by 
the Commission on America's National Interests in 2000 and 
subsequent projects.
    So, therefore, both countries share an interest in ensuring 
that the dual threat that emanates from the Middle East 
insurgency there is contained, and that comes to countering the 
rise of ISIS, continuing to dismantle or keep al-Qaeda on the 
run, as well as denying these and other terrorist organizations 
any access to weapons of mass destruction, and particularly to 
nuclear weapons.
    I should note that, even though there are 30,000 recruits, 
reportedly, from foreign countries in ISIL and at least 4,500 
of them are estimated to have come from the West, Russia and 
its allies are more exposed to the threat posed by ISIS, if 
only because of the proximity. And, as Dr. Aron has pointed 
out, there are various estimates.
    The latest estimates have come from the Federal Security 
Service, and it is that 2,400 Russian nationals are in ISIS, 
and about 3,000 nationals of Central Asian republics are also 
in ISIS. That is a potent force.
    We shouldn't also discount al-Qaeda's al-Nusrah Front, 
which has its own unit that consists of natives of Russia's 
North Caucasus, but also the republics of Central Asia, and 
that unit counts about 1,500.
    So imagine what would happen if all these individuals come 
home, whether because ISIL prevails or whether because ISIL is 
defeated, but these individuals are not apprehended or 
eliminated.
    I should note that both organizations, ISIL and al-Qaeda, 
have maintained ties with the insurgents and terrorist networks 
in the North Caucasus. This summer saw ISIS establish a 
vilayat, a sort of province in the North Caucasus; and the 
Emirate Caucasus, the umbrella terrorist organization, operates 
in the North Caucasus, has had longstanding ties with al-Qaeda, 
and its leaders have praised Ayman al-Zawahiri as their leader.
    So no surprise that Russian officials, including Foreign 
Minister Lavrov and Secretary of the Security Council 
Patrushev, have described ISIS as the main threat to Russia and 
the main threat to global security, respectively. On the U.S. 
side, there is less agreement on whether ISIS represents a top 
threat, but I think the FBI Director has been quoted as saying 
that it is a top threat to U.S. national security.
    So since neither the United States nor Russia can tolerate 
the further existence of a quasi-state in the form of ISIS in 
the Middle East, and both countries need to counter al-Qaeda 
and keep it on the run and reduce its possibilities, I would 
argue there is definitely ground for potential cooperation.
    Now, that is impeded by different approaches toward Syria, 
although I believe--and Russian officials have said 
officially--that Russia is not married to Assad. So I think in 
the longer term there is an opportunity for a transition to a 
coalition government that would represent Assad's key 
constituencies--Alawites, Kurds, and also moderate sections of 
the Syrian opposition.
    For now, the U.S.-Russian cooperation can be, though, 
limited to fighting ISIL in Iraq, and that could include joint 
operations, which is something U.S. and Russian special forces 
have done on a very low scale in Afghanistan. It could include 
providing more arms and more training to the Iraqi Armed Forces 
and the Kurds fighting ISIL, and it could, of course, include 
disrupting financing, which is not a counterterrorism tactic 
per se, but is an important element of countering such 
organizations.
    But even looking beyond that, countering terrorism with 
force alone would not suffice. So there are certain root causes 
and contributing factors that I am not going to list, but are 
in the statement, that both Russia and the United States need 
to address as they think how to defeat terrorists not only in 
the Middle East, or containment, but also in their own 
countries.
    Of the deep-rooted and structural causes, I would point out 
relative socioeconomic deprivation, historical grievances, poor 
quality of governance, and political instability are factors 
that facilitate this violence. I would point out the spread of 
violent ideologies and, primarily, the militant form of 
Salafia, or so-called ``Wahhabism,'' as Dagestani officials 
call it.
    And finally, the third group of causes, motivational causes 
I would point out are the abuses of the population. If there is 
anything that creates grievances, it is the abuses of the 
population at the hands of authorities.
    So let me conclude by saying that cooperation between the 
United States and Russia against terrorism in general, and ISIS 
and al-Qaeda in particular, will not only significantly advance 
international efforts to contain these organizations' expansion 
within and without Iraq and adjacent countries, but it can also 
help to stop the slide toward a new Cold War between the West 
and Russia in the wake of the Ukraine crisis, although these 
factors are not exactly--there is no avoiding it. I mean, the 
Ukrainian crisis will have to be resolved regardless, but that 
cooperation--let me repeat--will help to stop the slide toward 
a new Cold War.
    Thank you.
    [The prepared statement of Mr. Saradzhyan follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              


 STATEMENT OF MARK N. KATZ, PH.D., PROFESSOR OF GOVERNMENT AND 
   POLITICS, SCHOOL OF POLICY, GOVERNMENT, AND INTERNATIONAL 
                AFFAIRS, GEORGE MASON UNIVERSITY

    Mr. Katz. Mr. Chairman, distinguished members, thank you so 
much for the invitation to speak to you today. I would like to 
address the Syrian aspect of this issue.
    Unlike in Ukraine, where Moscow has openly declared that 
its motive for intervention and support for separatist forces 
is being undertaken to counter the West, Russian officials have 
characterized their support for the Assad regime in Syria as 
actually being in Western interests--even if Western 
governments do not quite seem to understand this--since it 
serves the common goal of combating the Islamic State.
    Russian President Vladimir Putin recently described the 
Assad regime as an important ally in the fight against the 
Islamic State. ``It is evident,'' he stated recently, ``that 
without an active participation of the Syrian authorities and 
military, without participation of the Syrian army inside the 
territory, as the military say, in the fight against Islamic 
State, terrorists cannot be expelled from that country and from 
the region on the whole.''
    Russian Foreign Minister Sergey Lavrov described the Assad 
regime as a crucial ally against Islamic State. He declared 
that, ``The Syrian President is the commander in chief of 
probably the most capable ground force fighting terrorism. To 
give up such an opportunity, ignore the capabilities of the 
Syrian army as a partner and ally in the fight against the 
Islamic State, means to sacrifice the entire region's security 
to some geopolitical moods and calculations.''
    Now, while the West may not like Assad, Russian officials 
and commentators are saying his authoritarian regime is 
preferable to an even worse one that Islamic State would 
establish that would pose a real threat to Western, as well as 
Russian interests. Furthermore, Assad regime forces are needed 
in order to stop Islamic State from taking over more or even 
the rest of Syria. Western insistence that Assad must step 
down, then, is foolish since this would gravely weaken the 
forces fighting against Islamic State. The West, then, should 
work with Moscow and the Assad regime against the common threat 
and not against them.
    This argument is based on the premise that the Assad regime 
is actively fighting against Islamic State. There have been 
numerous reports, though, that the Assad regime and the Islamic 
State have actually not been fighting with each other or not 
doing so very much. A widely quoted study by IHS Jane's 
Terrorism and Insurgency Center at the end of last year noted 
that the Assad regime's ``counterterrorism operations . . . 
skew heavily toward groups whose names aren't ISIS. Of 982 
counterterrorism operations for the year, up through November 
21, 2014, just 6 percent directly targeted ISIS.''
    In February of this year, TIME magazine reported on a Sunni 
businessman with close ties to the Assad regime describing 
various forms of actual cooperation between the Assad regime 
and the Islamic State, including how the Assad regime buys oil 
from Islamic State-controlled oil facilities, how Syria's two 
main mobile phone operators provide service and send repair 
teams to IS-controlled areas, and how Damascus allows food 
shipment to the IS capital, Raqqa.
    At the beginning of June 2015, U.S. Embassy Damascus 
accused the Syrian Government of providing air support to an 
advance by Islamic State militants against other opposition 
groups north of Aleppo.
    In July, Turkish intelligence sources claimed that ``an 
agreement was made between the Assad regime and Islamic State 
to destroy the Free Syrian Army in the country's north.''
    Now, why would the Assad regime not fight against the 
Islamic State and even cooperate with it? Both of them have an 
interest in weakening their common foes--other Syrian 
opposition groups being supported by Turkey, Saudi Arabia, 
Qatar, and others.
    Moscow and Damascus, of course, vehemently deny that the 
Assad regime and the Islamic State are not fighting each other 
and are even cooperating against their common foes. The 
numerous reports that this is what is happening, as well as the 
compelling nature of the ``enemy of my enemy is my friend'' 
logic at work here, though, point to their credibility. And if 
these reports are true, then certain implications follow.
    If Assad and the Islamic State are not really fighting each 
other, but the Assad regime is losing ground, then its 
weakening is due primarily to the non-Islamic State forces 
backed by Turkey and the Gulf Arabs.
    Russian military support to the Assad regime is likely to 
be used primarily against those forces that are most 
threatening to Damascus--i.e., the Free Syrian Army, the al-
Nusrah Front, and all of the others--and not against the 
Islamic State, which is less threatening to it.
    Russian calls for the West to work with Moscow and Damascus 
in the fight against the Islamic State, then, are really 
intended to elicit Western acquiescence to increased Russian 
support for Assad regime efforts to combat its more threatening 
non-Islamic State opponents as well as to divide Western 
governments that fear the Islamic State more than the Assad 
regime, on the one hand, from Turkey and the Gulf Arab states, 
which are more focused on supporting the downfall of the Assad 
regime through supporting its non-Islamic State opponents on 
the other.
    What all this suggests is that the recent increase in 
Russian military involvement in Syria is motivated much less by 
a desire to combat the Islamic State than by the desire to 
protect the Assad regime against its more active non-Islamic 
State opponents as well as to blunt the actions of Western and 
Middle Eastern actors aimed at supporting them.
    Thank you.
    [The prepared statement of Mr. Katz follows:]
   
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Rohrabacher. Well, thank you all for this actually 
quite diverse view of what is going on and what we should do. I 
hope maybe by the end of this hearing we can actually come to 
some conclusions, but you are all so much wiser than I am, I 
assure you.
    All right, Dr. Aron, Dr. Katz just basically called into 
question whether Assad is actually as anti-ISIL as we have been 
led to believe. Could you give us your assessment of that, 
please?
    Mr. Aron. Well, I am sure Mark looked deep into that. I was 
concentrating largely on the spread of fundamentalism--
militancy--inside Russia from the North Caucasus. But 
intuitively, you know, gangsters usually find common language--
Stalin did with Hitler, for example--so I would not be 
surprised if that is the case. And in any case, they do come to 
blows, but first they take care of the pro-Western liberals. 
And, again, you know, that may not just apply directly to the 
Free Syrian Army, but, historically, I would think that that is 
probably quite accurate.
    As somebody who has been dealing--you know, studying Putin 
and his ideology and his goals, I agree that, you know, even 
regardless of what Putin's plans are with respect to Assad, per 
se, I think they are secondary. I think the most important 
thing to Putin in Syria is what I call the implementation of 
the Putin doctrine, as I articulated a few years back, which is 
the recovery of geopolitical assets lost by the Soviet Union in 
the fall of the Soviet state. He wants to establish the 
presence of Russia in the Middle East as probably the dominant 
outside player. That is the first thing.
    The second thing, let's not forget that, Assad or no Assad, 
the only thing, as a Russian analyst, top Russian pollster told 
me a couple years ago, the only thing that is going for this 
regime--I am talking about the Putin regime--is Putin's 
personal popularity, if you look at the public opinion polls. 
How does he get this popularity? He gets this popularity by 
embodying the thirst and the hunger for reestablishing Russia 
as a great power. This is what happened with Crimea, this is 
what happened with Ukraine, and now this is what is happening 
in Syria. I think this is the key motivational force, the key 
motivation for Putin to be present in Syria.
    And one last thing, again, which has nothing to do with his 
support for Assad. There is a very serious concern, and both of 
the speakers touched on this, there is a very serious concern 
for what--you mentioned Churchill before, let me apply 
Churchill's definition of the Balkans--for the soft underbelly 
of Russia, which is the Central Asia. It consists of very 
unstable regimes, and the ISIS penetration and the Taliban 
subversion of those states brings ISIS and brings the Taliban 
to Russia's borders. This is another issue for, I think, 
motivated Putin.
    Mr. Rohrabacher. We have how many minutes before we vote? 
About 7 minutes.
    I am going to yield several minutes to you now, and we will 
come back immediately after the two votes.
    Mr. Sires. I will wait until we get back.
    Mr. Rohrabacher. All right. We are in recess until 
immediately after the second vote.
    [Recess.]
    Mr. Rohrabacher. The hearing is called to order. I will 
finish my questions after Mr. Sires has his chance.
    Mr. Sires. After you.
    Mr. Rohrabacher. Okay.
    Look, again, there is a wonderful diversity of opinion here 
and a whole new concept, which I had not heard, and let me just 
ask then, from your testimony, you are suggesting that Assad is 
not someone who is as antiradical as we have been led to 
believe and that he would, and with Mr. Putin's involvement 
with Assad, is not going to direct them toward ISIL but direct 
them toward his own--or the nonaligned movement?
    Mr. Katz. I think that Assad, obviously, he is opposed to 
the jihadists, and they are opposed to him. I just think that 
the way in which they look at the question is one of, you know, 
a highly Machiavellian manner, and that is that, who is 
threatening Assad most now? It is not ISIS so much. It is these 
other opponents. And who threatens ISIS in many respects? In 
other words, it is a competition among the other Syrian 
opposition movements, so that they have a common interest at 
present that both would like to see the other opposition 
movements weakened. Now, that doesn't mean that they are going 
to be friends later on--in other words, they are preparing for 
the day that they will probably turn on each other--but at the 
moment, it seems that they are not so interested in fighting 
each other, that they both prefer to weaken the----
    Mr. Rohrabacher. So those two groups are not interested in 
fighting each other, and at least one of them is interested in 
fighting Assad, and Assad will then focus on, if we help him, 
only on that group and ISIL? So you are saying the ISIL forces 
are not at this point attacking Assad's military bases and 
things such as that and it is the group that we--by the way, 
just to note, I voted against arming that third force. I 
thought that was going to turn out the way things did in Iraq.
    And so you are suggesting that that group now is, indeed, 
leading the fight against Assad and that ISIL is not?
    Mr. Katz. Well, obviously, it is many, many groups, in 
other words. It is not even as complicated as a three-cornered 
conflict. In other words, there are loads of actors involved 
here. But what it does seem is that at the moment, it is the 
opposition groups that are not ISIS that are most threatening 
to Assad; therefore, it is not surprising that Assad is 
concentrating his efforts on these particular forces.
    Mr. Rohrabacher. But we have seen reports that--and one of 
the reasons why we voted against doing this is that there have 
been defections by that third force, supposedly, to ISIL. In 
fact, one of the major leaders of that group defected, and the 
report that I read is he now commands a force half of which is 
made up of people from Chechnya.
    Mr. Katz. My memory of the report is that the moderates 
whom we supported defected to the al-Nusrah Front, which, of 
course, is hardly better, but it is not ISIS, that is for sure. 
But we are not a major actor in terms of, I think, external 
actors supporting the Syrian opposition. Obviously, it is the 
Saudis, the Turks, the Qataris, and others. And I think that 
they have their own agenda. I am not sure if it was ever 
possible to create this moderate third force. I don't think it 
necessarily was.
    Mr. Rohrabacher. Could you tell me what group, was it the 
third group that you are thinking about or was it ISIL that 
just captured the--I have trouble pronouncing it--I-D-L-I-B, 
the Idlib airbase, which was--I think it was 2 weeks ago? It 
was a major--it was a huge victory for--I assumed it was ISIL 
at the time, but it was a major defeat for Assad's forces.
    Mr. Katz. I am not positive which one it was actually who 
captured it. I just remember the very----
    Mr. Rohrabacher. So if it was ISIL and not this third 
force, the basis of your--that would go totally contrary to the 
basic which you are testifying today?
    Mr. Katz. I would just like to refer to the U.S. Embassy 
Damascus statement from earlier in June indicating that the 
U.S. accused the Syrian Government of providing air support to 
an advance by Islamic State militants against opposition groups 
north of Aleppo.
    In other words, that there seems to be sort of a--not an 
actual alliance, but sort of an alliance of convenience, in 
many respects, between Assad and ISIS. If he has to give 
anything up, he would rather see it go to ISIS at present than 
his other opponents in order to bolster the argument that----
    Mr. Rohrabacher. But if that airbase, which was one of the 
major battles in the last 6 months, because they have been 
defending this with their lives and this was a major part of 
their strategy, if indeed that was an ISIL attack, that does 
basically contradict your theory.
    Mr. Katz. If it was an ISIL attack.
    Mr. Rohrabacher. That is correct. So we will find out. I 
will look into it. The group that did it was al-Nusrah.
    Mr. Katz. Okay. Then that makes sense, yes.
    Mr. Rohrabacher. And al-Nusrah, to you, is a radical 
Islamic group?
    Mr. Katz. Of course, it is a radical Islamic group.
    Mr. Rohrabacher. Okay. Yeah. Okay.
    Mr. Katz. Uh-huh.
    Mr. Rohrabacher. Okay. So doesn't that go a little bit 
contrary to what you were testifying?
    Mr. Katz. Well, if the focus is on ISIS per se, I think one 
thing that we know is that they are more radical even than al-
Nusrah. In other words, there has been competition between the 
al-Nusrah Front and ISIS. I am not saying that it is better 
that al-Nusrah Front has made these advances, but what I think 
is that what we are seeing is that, as the Assad regime 
weakens, then eventually we are going to see a conflict between 
al-Nusrah and ISIS. In other words, they are not going to kiss 
and make up because they are both radicals.
    Mr. Rohrabacher. Right. Okay.
    Mr. Katz. That there is going to be a conflict between 
them.
    Mr. Rohrabacher. Well, with that, and Mr. Sires, and then I 
will have some other questions later.
    Mr. Sires. Thank you, Mr. Chairman.
    You know, as I listened to your statements, I couldn't help 
but be a little bit confused in everything that was said here.
    First, let me make an observation. You know, for the last 
few weeks we have been hearing about how the Syrian army has 
been weakened and how it looked like there was going to be 
defections and everything else. I really think that was a setup 
so that the Russians should come in and step in there in Syria. 
And now, today, I understand that the Russians bombed the 
Free--I wrote it down here--the Free Syrian Army post, but that 
wasn't ISIL.
    So what does all of that mean? I mean, I assume that they 
were there to fight ISIL. Anybody? I guess I will get all three 
of your opinions since they were so diverse when you first gave 
your statements.
    We will start with you.
    Mr. Katz. Okay. Yes. I think that in today's Washington 
Post, we have seen reports in which the Russians have claimed 
that they have made an attack on ISIS, but that opposition 
leader Hisham Marwah claimed that the Russian air strikes 
targeted civilians, not ISIS, killing 37 people in Homs. `` 
`The people of this area are opposed to ISIS,' said Marwah, 
vice president of the Syrian National Coalition, speaking by 
telephone from the U.S.'' His accounts, of course, couldn't be 
independently verified.
    And so I think that this is the heart of the matter, that 
Putin claims he is there to fight ISIS, but what he is really 
there to do is to protect the Assad regime--protect the Assad 
regime against both the forces that oppose him most strongly, 
and this isn't ISIS. In other words, he is going to hit whoever 
is threatening Assad. He is not going to punctiliously avoid 
those forces that are not ISIS but which are threatening Assad. 
No. He wants to get rid of all the opposition to Assad.
    Mr. Sires. Dr. Aron.
    Mr. Aron. As I said before in answer to Mr. Chairman's 
question, Putin is there to show that Russia does not abandon 
its allies.
    Mr. Sires. So in complete contrast to what people are 
claiming about us?
    Mr. Aron. Make your own conclusions.
    Mr. Sires. No, I am just saying.
    Mr. Aron. Yeah. And I think Putin--well, and I think 
Putin--you know, that point does not escape Putin, definitely. 
Well, you notice that immediately, you know, almost 
coincidental, Iraq now is cooperating with Russia on 
intelligence matters, and we are now worried what secrets is 
our Iraqi, I guess, allies are going to give Russia. It was a 
headline today.
    So Putin is there to show that Russia does not abandon its 
allies. On a more strategic level, if I may reiterate, it is 
for Putin to regain a very important geopolitical asset. Russia 
is back in the Middle East after Sadat threw the Soviet Union 
out in 1972. Russia is back.
    And, finally, it is an extremely important domestic 
political imperative for him to show that, whatever economic 
difficulties they have, Russia is a great power again, whether 
it is in Ukraine, whether it is in the Middle East, and God 
knows what is going to be next.
    So these, to me, I think, is how Putin calculates it. 
Frankly, you know, so long as the regime that he supports is in 
power, I think that is Putin's strategic goal. Who he has to 
bomb along the way is, you know, I think is a secondary matter 
to him. He leaves it to the people on the ground.
    Mr. Sires. What do you think?
    Mr. Saradzhyan. Well, I haven't seen reports of what 
Russian warplanes have bombed what. My understanding is that 
Russia's interests in Syria require that Russia has a say in 
the future of this country. But the notion that Russia would 
bomb any of Assad's opponents, I think, is mistaken. Russia has 
hosted negotiations between some members of the Syrian 
opposition and Syrian officials. Russia has discussed, 
according to those opposition members, as cited in the press, 
potential participation of these opponents in the future 
government.
    So, therefore, I think, as long as Russia's interest in 
Syria are honored, which is the presence of the Russian Navy in 
the Tartus, at the Tartus facility, continuing military 
industrial cooperation with Syria, and ensuring that there's no 
failed state in Syria, which is the largest concern of Russia, 
it would be open to accommodating a potential transition to a 
coalition government in the long run. Again, I haven't seen 
what they have bombed.
    Mr. Sires. But a coalition government, though, that would 
be in favor of Russia?
    Mr. Saradzhyan. That would take into account--it is not 
black and white--that would take into account Russia's 
interests, which include ensuring stability of Syria so that it 
doesn't become a failed state and, therefore, does not become a 
haven for terrorist groups that would then attack Russia and 
its allies, ensuring that Russia's naval presence remains in 
Syria, as it has been, and ensuring that Russia continues to 
trade with Syria in goods that let Russia diversify its 
economy, which is mostly about oil and gas. Syria is a major 
buyer of Russian machinery, including arms.
    So as long as those interests are honored, Russia will 
remain open to the real dialogue, and the notion that it would 
bomb any of Assad's opponents, I think, is mistaken. If you 
read what the spokesperson for the Foreign Ministry said, Maria 
Zakharova, she said openly what has been said privately by 
Russian officials for a long time, that Russia is not married 
to the idea of keeping Assad necessarily in power.
    Mr. Sires. Okay. Somebody talk a little bit about the 
challenges that the Russians' military presence in Syria poses 
to the United States in terms of its conflict in Syria. What 
challenges do you see for us there?
    Mr. Katz. Well, clearly, if, in fact, the U.S. has its own 
bombing campaign against ISIS--and, certainly, Russia has its 
bombing campaign too--then I think the main question is 
deconfliction. We want to make sure that the two air forces 
don't run into each other. And so this is a serious issue, it 
seems to me.
    On the other hand, other than that, I am not sure that the 
Russian military presence can really be seen as a threat to the 
United States. You know, Russia has fewer troops in Syria than 
we now have in Iraq. And so it strikes me that with our 
presence in Iraq, we are not exactly able to defeat ISIS with 
that. I don't think that what Russian presence we have seen in 
Syria is going to enable Russia to defeat ISIS if, in fact, 
that is what it wants to do. I think that, at best, what they 
are there to do is to bolster the Assad regime.
    I have to disagree with my colleague about who Russia is or 
is not willing to bomb. I think that Russia is there to help 
the Assad regime. The Assad regime has certain very urgent 
opponents, and therefore I think that if that is what is 
necessary to attack, then that is what they will attack. I 
don't think Russia wants to get deeply involved in Syria, and 
in that caseI think thatPutin may have bitten off a little more 
than he can chew.
    I have heard certain people from the Pentagon indicate that 
the U.S. can live with a Russian naval facility on the coast of 
Syria. It doesn't really threaten us very much. SoI don't think 
that we are necessarily opposed to Russia having normal 
relations, even favored relations with Syria.
    And I think that at the beginning of the Syrian conflict 
our thought was that, well,just as Moscow complained that after 
Assad Russia wouldn't have any influence in Iraq because the 
Iraqi Government would be pro-American, and what we have seen 
is increasing cooperation between Iraq and Russia. I think what 
we expected was that with the change of regime in Syria, which 
of course didn't happen, was that the new Syrian Government 
would eventually, after a certain pause, restore relations with 
Russia as well. But, of course, this is not what has happened.
    Mr. Sires. Dr. Aron, what challenges do you think it poses 
to----
    Mr. Aron. No comment on that. You know, I thought that the 
actual topic, the threat of Islamic extremism in Russia, I 
think Syria does enter this simply because Syria has become a 
training ground for the jihadists from Central Asia, North 
Caucasus. But my point was that I think we may be seeing 
something much more threatening, and that is the Russian Muslim 
minorities inside Russia are beginning to go that route. They 
have very significant presence already in the troops of the 
jihadists in Syria.
    And, frankly, if we thought that the Chechenswere a 
problem, there are 1 million of them, and there are 6\1/2\ 
million of Tatars and Bashkirs, and there are another 5 to 6 
million inside Russia, including 2\1/2\ million migrants from 
Central Asia, who are constantly going back and forth, and 
Central Asia is completely now penetrated by ISIS recruiters 
and ISIS propaganda.
    So talking of danger to the United States, those things are 
very rarely contained within national borders. So this, to me, 
is one of the offshoots. Regardless of what Putin does and what 
we do, I think that train is already in motion.
    Mr. Sires. And do you agree or disagree?
    Mr. Saradzhyan. Well, I agree. And as I said in my recent 
statement, the primary threat that emanates from that area is 
not whether Assad stays for a bit longer or is ousted now. It 
is whether this threat of violent jihadists can be contained 
and eliminated.
    Mr. Sires. So you don't think it poses any challenges to 
our efforts in Syria?
    Mr. Saradzhyan. I think whoever does anything, if it 
focuses on violent extremists and violent Islamists in Syria 
and Iraq, whoever goes after them, it is in the interests of 
the United States and it doesn't pose a threat, just like it is 
in the interests of Russia.
    Mr. Sires. Thank you, Mr. Chairman.
    Mr. Rohrabacher. Well, thank you very much.
    We are going to have another series, which gives me an 
excuse to be able to ask some questions as well. And if you 
would like to ask some more, we will get that in as well.
    I would like to place in the record a letter from John 
Quincy Adams to his fellows about his observations about Russia 
even as far back as John Quincy Adams, who, I believe, was our 
first Ambassador to Russia.
    And he pointed out in his letter and lengthy analysis that 
the Russian character had been developed in great part due to 
its constant fight with Islam on its borders, that the Russia 
character of actually--and their national spirit--had been 
brought about by this fact that Islam was in a time of 
expansion, and Russia and the Russian people bore the brunt of 
that.
    Thus, the idea that something could happen in the Islamic 
world that would be a great threat to Russians is something 
that is not just what Putin believes, but something that is 
engrained in Russian people, who over the years have had tragic 
incidences with, for example, a school in Beslan. And I went to 
that area to see that school and to talk to the local people. 
And they end up with hundreds of their children being murdered, 
basically. But that is not only. But you go through the years, 
this has been part of Russia's psyche.
    I don't think--look, is there something--I don't think 
there is anything wrong with a country being led by a ruler who 
wants their country to be a great country. And I heard Mr. 
Putin's remarks to the United Nations, and he readily admitted 
that Russia had discarded the Soviet Union, and this was a new 
situation, and they are back to what normal countries should be 
judged by, not by standards that were established during the 
Cold War when Russia, itself, was being directed by an 
ideological, zealous clique in the Communist Party, the same 
way radical Islam is having such a major impact on Islam. The 
radical Islamists have that type of ability to impact on 
policies and large numbers of people through their violence.
    So I really reject the idea that, well, Putin is only down 
there and the Russians are only down there to help Assad, their 
friend, although part of being a great country is making sure 
that when you make a deal with somebody that you keep the deal 
even when it gets tough and you don't leave your friends in the 
lurch after they have risked everything for you. And it seems 
that in the last few years the United States, as my colleague 
accidentally indicated, the United States----
    Mr. Sires. Some people.
    Mr. Rohrabacher. Yeah, well, we have left a lot of people 
behind here. And also, the United States policy was what? We 
had to get rid of Saddam Hussein. We felt compelled to go in 
and get Saddam Hussein. And now we feel compelled to make sure 
that Assad in some way doesn't hold power.
    I don't get that. I think it was a mistake on our part. And 
I voted for that to support President Bush when he went into 
Iraq. That was a horrible mistake. And Saddam Hussein was not 
our enemy. And guess what, I don't think Assad is our enemy.
    And if Russia is indeed there simply to help Assad--and 
what might happen to Syria, even if Assad is overthrown with 
non-ISIL forces--I don't think that it was the radicals that 
necessarily overthrew Qadhafi, but when the moderates overthrew 
Qadhafi with our help, we ended up with half of Libya now being 
controlled by radical Islam and a threat to the stability of 
the whole region.
    Maybe Assad is like that. Maybe, no matter who overthrows 
him, as Mr. Putin was mentioning in his remarks at the U.N., 
that maybe this will create an unintended consequence of total 
catastrophe, not just Assad being overthrown by someone who 
isn't radical, but by the fact that you have a power vacuum 
then and chaos that will be exploited by these radical forces 
that are clearly present in that region.
    So I personally, number one, think that we ought to start 
analyzing Russia, which is one of the reasons why you have this 
hearing, make sure that we understand what motives are going on 
here. And I don't think it is the motive that we had the same 
motive that when Khrushchev put the missiles into Cuba. I don't 
think that is the type of attitude that we are facing in the 
world today. And that is a lot different and that deserved the 
outrage that we had at that time.
    But Assad being helped by Russia in the face of this type 
of turmoil, I don't see that this should be on our list of 
things to thwart, and it seems that our government is.
    Back to the actual nature of Russia and radical Islam. Do 
you think, with all of the testimony we have heard today, I 
mean, it seems to me that wouldn't a government of Russia be 
justified in being concerned to hear that there are 5,000 
Russian people who might at the end of this come back home and 
start committing the types of terrorism that is being 
experienced in different parts of the world? Isn't that a 
justified fear? Okay, please feel free to comment. Whatever.
    Mr. Aron. Of course it is. And the fact that the Russian 
language is now the third most popular and that, you know, I 
have all kinds of stuff that you cannot fit in 5 minutes, but, 
you know, there have been reports that there were graffiti in 
Russian in Syria which read, ``Putin, we will pray in your 
palace,'' or through ``Tajikistan to Russia,'' which was one of 
the slogans of several groups. There is the Islamic Movement of 
Uzbekistan. I mean, this is a very vulnerable area.
    Mr. Rohrabacher. Yeah, a Tajik city was just taken over by 
the Taliban. Now, by the way, it is not that somebody is 
worried about that Russia will fall to these radicals. The 
issue is whether or not, because these radicals feel that they 
are now motivated and backed and have experience, that they 
might go into that country and start killing people in large 
numbers, whether it is herding a bunch of kids into a school 
and surrounding them with explosives, or whether it is setting 
off the type of explosions and things that we have seen in 
railroad cars in Western Europe.
    There are fewer Muslims in Western Europe than what we have 
in Russia, and they are suffering from attacks, terrorist 
attacks there.
    So, again, I think that the threat to Western civilization, 
to the non-Muslim world from radical Islam, Islamic terrorists, 
is real, and it makes sense if someone is also a target for 
that, that we don't try to do everything we can to undermine 
their efforts, but instead at least try to find ways to 
cooperate. That is what this hearing is all about.
    And my colleague will now have his questions.
    Mr. Sires. Okay. Are you going to put that letter for the 
record?
    Mr. Rohrabacher. It is for the record.
    Mr. Sires. Okay.
    I am trying to associate the Ukraine with what is going on 
in Syria. And do you think it has anything to do with Putin's 
decision to go into Syria, the fact that now there is like a 
stalemate there?
    Mr. Aron. Well, one of the most interesting reactions that 
I heard from the--or read in the Russian media immediately 
after, because it was a surprise to everybody, part of the 
issue with Russia is that Putin literally is his own defense 
council, which is very difficult. It is a very dangerous 
situation. Crimea was a surprise to his ministers, to his 
closest aides, and so was Syria.
    So the reaction from the Russian analysts was--one of the 
reactions--and remember I mentioned to you that there is a 
domestic political dimension to this, that is that Putin is 
popular not because of the Russian economy anymore. He used to 
be popular because they grew 7, 8 percent every year between 
2000-2008. He is popular because he embodies this dream of 
Russia becoming a superpower like the Soviet Union used to be.
    Mr. Rohrabacher. That is called patriotism, right?
    Mr. Aron. Well, we all want our countries to be great. The 
question is how we achieve it. That is a separate issue.
    Mr. Sires. We call it something else.
    Mr. Aron. But the bottom line is, some of the analysts, 
some of the most respected Russian analysts, independent 
Russian analysts, said one of the reasons, not the whole 
reason, but one of the reasons to go to Syria is that Ukraine 
no longer generates enough of this patriotic heat that makes 
not all Russians, but quite a few to forget about the economic 
hardships, the 15 percent inflation, that the economy is 
probably going to shrink 5 to 6 percent this year, that there 
is unemployment, that the pensions are growing smaller and 
smaller due to inflation, that food products are now 15, 20, 30 
percent more than they used to be because of the ban on the 
imports, and because there is no import substitution anymore. 
So all of those----
    Mr. Sires. The price of oil has gone down.
    Mr. Aron. The price of oil is down. The ruble lost half of 
its value. But you see the headlines. We are in Syria now. We 
are present. They listen to us. They are afraid of us. They 
respect us. This is all very important.
    And this is, you know, answering your question, this could 
have been one of the motivations. And you said, what is the 
connection to Ukraine? And I could talk to Ukraine for a long 
time. It is a very interesting subject. But for whatever 
reason, Putin now put Ukraine on hold. I don't think it is 
forever. I think he is going to return to that issue.
    But there is something else now. He is like that man on the 
bicycle. I mean, that thing that, you know, when you put all 
your eggs in this what I call patriotic mobilization, you have 
got to give people, you know, fresh meat. You know, you are 
riding the tiger which is great, but the tiger requires fresh 
meat and bloody meat every now and then. So Ukraine is on hold, 
but Syria is in the headlines.
    Mr. Sires. Anybody else want to take a crack at that?
    Mr. Katz. Thank you.
    Yes, I think in addition to what Dr. Aron had to say about 
the domestic political aspect of this and the link between 
Ukraine and Syria, I think there is also an important aspect in 
terms of relations with the West. In other words, the sanctions 
that the West has imposed on Russia as a result of actions in 
Ukraine are hurting the Russian economy, hurting it pretty 
badly. And I think that for Putin in particular, by making this 
argument that we can work together in Syria against ISIS, that 
this is a way sort of to restore relations with the West.
    And to some extent I think we have seen it starting to 
work. President Francois Hollande actually came out and said 
maybe we should reduce the sanctions on Russia now that we have 
to deal with Syria together. Obviously, this is what he wants, 
although I did notice that most recently Francois Hollande 
indicated that what he wants to see is Russian actions against 
ISIS, not just words about it.
    And of course Putin is taking advantage of the migration 
crisis. In other words, I think for a lot of Europeans in the 
European public, when it comes down to it, which is more 
important to them? Is it the migration crisis or what is 
happening in Ukraine? It is the migration crisis and if Putin 
is going to provide a way out of this, but the question is can 
he.
    I would like to just also get back to an important point 
that Congressman Rohrabacher indicated, in other words, that in 
addition to the geopolitical competition between the U.S. and 
Russia, there is a basic philosophical difference about how to 
deal with Syria. The Russian argument is that Assad, as bad as 
he is, is less worse than ISIS, therefore we should support 
Assad. The Obama administration's argument is that ISIS is so 
awful that he has contributed to the rise of ISIS.
    And the real trouble, I think, is that both might be right. 
In other words, that both arguments have a degree of validity. 
And what that implies is that, whether Assad goes or stays, 
ISIS is going to be a problem. And that is the situation, I 
think, that we are really stuck in, that we can argue about how 
to deal with the Syrian situation, but the real bottom line is 
that neither we nor the Russians really have an adequate 
response to this, that it has gotten out of hand, and whatever 
which way we go, it is going to remain a problem.
    Mr. Sires. Thank you, Mr. Chairman.
    Mr. Rohrabacher. Let's give our panelists each 1 minute to 
summarize what they would like to summarize on the issue, but 1 
minute. And then the chairman, with his prerogative, will have 
a final statement as well. Then you can go.
    Dr. Aron, do you want to give us 1 minute?
    Mr. Aron. Yes, 1 minute is enough. I think, if indeed--and 
of course I gave you the tip of the iceberg on the evidence--if 
indeed we are witnessing a tipping point at which 
fundamentalist militant Islam is migrating from North Caucasus 
into Russia itself, I think this is a huge threat to Russia and 
the world.
    In addition to that, these types of things usually are 
enhanced by domestic political crises and pressures. And Russia 
is in a very precarious state economically, politically, even 
though Putin would not admit it. There are all kinds of 
strains. And I think, while we are worried about the failed 
state in Syria, I think we should also worry about how the 
terrorism could become an issue for Russia and us.
    Mr. Rohrabacher. All right.
    Mr. Saradzhyan. I would like to reiterate that U.S. and 
Russia share common interests in countering terrorism and 
proliferation threats that emanate from Syria and Iraq, meaning 
terrorist groups based there. And I think regardless of 
disagreements on the future of Assad, both countries can and 
should work together to counter that threat, which is much more 
threatening, much more superior than intricacies of transition 
in Syria.
    Thank you.
    Mr. Rohrabacher. Dr. Katz.
    Mr. Katz. The rise of jihadism in Russia is obviously not 
in Moscow's interest and it is not in the interest of America 
and the West either. But this rise of jihadism in Russia just 
isn't occurring in a void. The real tragic situation is that 
Russia's Muslims are not treated very well by the Russian 
Government, by Russian society.
    And I think part of the problem that we face in dealing 
with this issue is that we can't either force or convince 
Vladimir Putin to treat his Muslims nicely. And that, I think, 
is the heart of the problem: That the Muslim issue in Russia is 
not one that America is in a position to address. Only Moscow 
can do that, and at the moment it doesn't want to do so very 
effectively.
    Mr. Rohrabacher. Well, thank you all for joining us today. 
Just a few short thoughts, and that is, let us remember that 
when Saddam Hussein was eliminated it brought chaos. When 
Qadhafi was eliminated it brought chaos. There were 
alternatives there, you know, Qadhafi in particular, but also 
with Saddam Hussein.
    And we were told that this third force was our alternative 
to Assad. And I think the Russians are very concerned that even 
if Assad is eliminated by this third force, even if that is the 
case, you are going to have just what happened in these other 
countries--chaos, which is then exploited by the most radical 
Islamic forces within those societies.
    And what would that impact on Russia, which we described 
today? This is a greater concern than actually is in Western 
Europe. And we can see what is going on, the frantic way 
Western Europe is dealing with radical Islam and the impact of 
it.
    President Putin just gave--not just, several months ago, I 
think it must have been 6 months to a year ago now--went down 
and provided President el-Sisi of Egypt $2 billion worth of 
credit--$2 billion--even at a time in which we have had 
testimony of a weakness in the economy of Russia. Now, why did 
that happen? Is that just because he wants Russia to dominate 
Egypt?
    Listen, Russia is a--like England and other great countries 
in the world, in China, in Japan, in India, and these 
countries--these are great countries of the world that their 
leaders calculate what is good for their country. And in the 
long run, I believe the reason why that $2 billion and that 
help to General el-Sisi was coming forward was because Putin 
acknowledges that if radical Islam were to take over in Egypt, 
that these other countries would be swept away in the Gulf and 
you would have radical Islam pouring into Central Asia, and 
that would dramatically impact the security of his country and 
the future of the world.
    And I think that there is some strategic thinking going on 
rather than simply he is a tough guy showing his muscles to the 
world and he is a gangster thug, which is usually the answers 
you get when you are trying to come up with a real analysis of 
what the hell is going on with Russia and these various parts 
of the world.
    So with that said, I think we need, I think the United 
States needs to cooperate with people who are going to help us 
defeat radical Islamic terrorism, whether it is Putin, or 
whether it is Assad, or whether who that is, because those 
people, especially, have the United States in target for their 
terrorism.
    If a nuclear bomb goes off from a terrorist group in the 
United States, it won't be from Russia, it won't be from Assad, 
it won't be probably from Japan or any of these other 
countries. It will be from radical Islamic terrorists. And if 
we are going to protect our people, we have got to be rational 
and we have got to reach out to those people who are the enemy 
of our enemy. And I buy that formula, and I think it will make 
us safer.
    And with that said, I appreciate the insights that this 
panel has given us today in understanding the world and having 
some good thoughts about what strategies we can use.
    So this hearing is now adjourned.
    [Whereupon, at 3:54 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
